Audit Report  97-09 Table of Contents
USE OF ADMINISTRATIVELY UNCONTROLLABLE OVERTIME
IN THE DEPARTMENT OF JUSTICE
Audit Report 97-09, (1/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
FINDINGS AND
RECOMMENDATIONS
POLICIES,
EXTENT AND COSTS OF AUO
Recommendations
ELIGIBILITY
CRITERIA AND PAYMENT OF AUO
Recommendations
STATEMENT ON COMPLIANCE
WITH LAWS AND REGULATIONS
SCOPE AND METHODOLOGY
APPENDIX I - AUO POLICIES
APPENDIX II - RESULTS OF PRE-SITE WORK
SURVEY
APPENDIX III - INS EFFORTS TO CORRECT
PRIOR WEAKNESSES
APPENDIX IV - REVIEW OF EARNED
PERCENTAGES
APPENDIX V - SCHEDULE OF DOLLAR-RELATED
FINDINGS
APPENDIX VI - INS COMMENTS ON THE AUDIT
RECOMMENDATIONS
APPENDIX VII - ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE REPORT
EXECUTIVE SUMMARY
Administratively Uncontrollable Overtime (AUO) is paid to employees in positions in
which the hours of duty cannot be controlled administratively, and which requires
substantial amounts of irregular, unscheduled overtime duty with the employee generally
being responsible for recognizing, without supervision, circumstances which require the
employee to remain on duty. Eligible employees are certified to earn up to 25 percent of
their base pay as AUO. On September 11, 1996, the Senate passed the Treasury, Postal
Service, and General Government Appropriations Act, 1997 which required Offices of
Inspectors General to perform audits of AUO in their departments. Our report is structured
to address the objectives required by this legislation.
The Department of Justice (DOJ or Department) paid about 6,900 employees
approximately $57 million in AUO in FY 1996. Virtually all of the AUO recipients were
employees of the Immigration and Naturalization Service (INS), mostly from the Border
Patrol. Over 6,600 employees in INS field units earned $54 million (95 percent) in AUO,
and approximately 300 INS Headquarters employees earned nearly $3 million in AUO. In
brief, our audit determined the following:
 INS policies agreed with established statutory, regulatory and
Department policies regarding AUO.
 By statute employees may receive no less than 10 percent and no
more than 25 percent of the rate of basic pay for AUO. Of the employees we sampled
receiving AUO, about 83 percent were certified to receive 25 percent.
 INS records did not substantiate that overtime worked was
uncontrollable for 95 percent of employees we sampled. Supervisors did not assess the
actual duties of the employees to determine if the overtime worked was uncontrollable. As
further indication of the controllable nature of the work performed, we found patterns of
employees reporting the same amount of AUO every day.
 Ten percent of AUO recipients were grades GS-13 and above who
earned over 16 percent of all AUO funds.
The details of our work, which was conducted in November 1996, are
contained in the Findings and Recommendations section of the report. Our audit scope and
methodology are contained on page 13.
#####